Audit Report




OIG-08-002
ACQUISITIONS: Although Weaknesses Still Exist, the Treasury
Franchise Fund Improved Compliance With DOD Procurement
Requirements
October 29, 2007




Office of
Inspector General
Department of the Treasury
Contents



Audit Report................................................................................................. 1

    Results in Brief............................................................................................ 2

    Background ................................................................................................ 6

    Findings and Recommendations .................................................................... 10

        DOD and FedSource Did Not Conduct Required Market Research and
        FedSource Awarded Certain Task Orders Without Adequate Competition ...... 10
        Recommendations................................................................................... 13

        Task Order Files Lacked Adequate Evidence of Price Reasonableness ............ 14
        Recommendation .................................................................................... 16

        FedSource Did Not Always Document Its Decision Process .......................... 16
        Recommendation .................................................................................... 18

        FedSource’s Quality Assurance Surveillance Documentation
        Remains Inadequate ................................................................................ 18
        Recommendations................................................................................... 20

        ARC Compliance Reviews of FedSource Identified Contracting
        Deficiencies But Did Not Ensure Corrective Action Was Taken ..................... 21

        ARC and FedSource Did Not Have Adequate Controls to Prevent
        Contract Ceilings From Being Exceeded ..................................................... 23
        Recommendations .................................................................................. 25

        ARC Does Not Know If Small Business Contractors Complied With
        Requirements Governing Use of Personnel ................................................. 26
        Recommendation .................................................................................... 27




                         ACQUISITIONS: Although Weaknesses Still Exist,                                     Page i
                         the Treasury Franchise Fund Improved Compliance With
                         DOD Procurement Requirements (OIG-08-002)
Appendices

  Appendix   1:   Objective, Scope, and Methodology .......................................             29
  Appendix   2:   Schedule of Task Order Exceptions ........................................            31
  Appendix   3:   Management Response .........................................................         32
  Appendix   4:   Major Contributors to This Report ..........................................          33
  Appendix   5:   Report Distribution ...............................................................   34

Abbreviations

  ARC             Administrative Resource Center
  BPD             Bureau of the Public Debt
  CICA            Competition in Contracting Act
  DFARS           Defense Federal Acquisition Regulations Supplement
  DTAR            Department of the Treasury Acquisition Regulation
  DOD             Department of Defense
  FAR             Federal Acquisition Regulation
  GAO             Government Accountability Office
  IDIQ            indefinite delivery/indefinite quantity
  IGCE            independent Government cost estimate
  NDAA            National Defense Authorization Act
  OIG             Office of Inspector General
  QASP            quality assurance surveillance plan




                  ACQUISITIONS: Although Weaknesses Still Exist,                                   Page ii
                  the Treasury Franchise Fund Improved Compliance With
                  DOD Procurement Requirements (OIG-08-002)
                                                                              Audit
OIG
The Department of the Treasury
                                                                              Report
Office of Inspector General




                      October 29, 2007

                      Van Zeck, Commissioner
                      Bureau of the Public Debt

                      This report presents the results of our second audit of the
                      Department of the Treasury’s compliance with applicable laws and
                      regulations for procurements made on behalf of the Department of
                      Defense (DOD) through the Treasury franchise fund. Our second
                      audit focused on fiscal year 2006 procurements. Both this audit
                      and the prior one were conducted in coordination with the DOD
                      Office of Inspector General (OIG).1 The audits were mandated by
                      the National Defense Authorization Act (NDAA) for Fiscal Year
                      2006.2

                      For this audit, we were again charged with determining whether
                      Treasury was compliant with applicable requirements for
                      procurements made on behalf of DOD. A determination of
                      noncompliance would have significant implications for the Treasury
                      franchise fund as DOD would be required to significantly curtail its
                      use of Treasury for procurements. That said, it should also be
                      noted that effective April 2007, responsibility for program direction
                      and oversight of FedSource, the component of the Treasury
                      franchise fund that directly serviced DOD, was transferred from the
                      Treasury Deputy Chief Financial Officer to the Bureau of the Public
                      Debt (BPD). BPD is to complete a controlled and orderly transition
                      out of the FedSource business no later than September 30, 2008.
                      BPD is to implement this transition in a manner that minimizes
                      disruption to FedSource customers, employees, and vendors.

1
  We reported the results of our first audit in Acquisitions: Treasury Franchise Fund Needs to Improve
Compliance With Department of Defense Procurement Requirements, OIG-07-026 (Jan. 16, 2007). That
audit focused, in accordance with the fiscal year 2006 NDAA, on Treasury franchise fund procurements
on behalf of DOD during fiscal year 2005.
2
  Pub. L. No. 109-163, 119 Stat. 3136 (Jan. 6, 2006).

                      ACQUISITIONS: Although Weaknesses Still Exist,                            Page 1
                      the Treasury Franchise Fund Improved Compliance With
                      DOD Procurement Requirements (OIG-08-002)
               We initiated this audit in October 2006, shortly after we completed
               work on the first audit. Our objective was to determine whether
               Treasury’s procurement policies, procedures, and internal controls
               applicable to the procurement of property, products, and services
               on behalf of DOD and whether administration of applicable policies,
               procedures, and internal controls were adequate to ensure
               Treasury’s compliance with laws and regulations applicable to
               procurements of property and services made on behalf of DOD. To
               accomplish this objective, we reviewed a sample of 28 task orders
               issued between July and September 2006. The sample task orders
               were from FedSource centers in Los Angeles, California; San
               Antonio, Texas; and Baltimore, Maryland. We also reviewed the
               files for the related multiple award contract and two blanket
               purchase agreements at BPD’s Administrative Resource Center
               (ARC), which is another component of the Treasury franchise fund.
               Our objective, scope, and methodology are described in more detail
               in appendix 1.

               Pursuant to the fiscal year 2006 NDAA, the DOD OIG and our
               office informed the Senate and House Committees on Armed
               Services in letters dated June 15, 2007, that we had determined
               that Treasury is compliant with DOD procurement requirements. In
               our letters, we also stated that while our review did identify some
               weaknesses with respect to market research and contractor
               surveillance, among others, overall we found that Treasury had
               made notable progress in addressing previously identified
               weaknesses. Additionally, we informed the Committees about
               Treasury’s plans to transition out of FedSource by September 30,
               2008.


Results in Brief
               FedSource made notable progress to address weaknesses found in
               prior audits, as evidenced by our findings of fewer exceptions in
               the areas of competition and price reasonableness. Also of note,
               we found no significant exceptions related to the proper use of
               DOD appropriations. In contrast, last year DOD OIG identified 21


               ACQUISITIONS: Although Weaknesses Still Exist,                Page 2
               the Treasury Franchise Fund Improved Compliance With
               DOD Procurement Requirements (OIG-08-002)
                       procurements made through FedSource during fiscal year 2005
                       that potentially violated the Antideficiency Act.3

                       FedSource also issued procedures that were responsive to our prior
                       audit report and DOD directives. In December 2006, FedSource
                       issued a procedure for conducting due diligence reviews on all
                       orders awarded on behalf of DOD. The due diligence reviews are to
                       include a cursory review of the appropriateness of the DOD funding
                       source. In January 2007, FedSource established a procedure
                       requiring customer agency project officers to sign designation
                       letters that outline the responsibility of the project officer to
                       develop the contractor surveillance procedures and to monitor
                       contractor performance. As discussed later in this report, adequate
                       contractor surveillance was one area that continued to be a
                       significant problem. In November 2006, FedSource issued a
                       procedure to implement recent DOD policy that, among other
                       things, addressed limitations on performance periods for severable
                       services (services that are continuing and recurring in nature).4

                       However, both DOD and Treasury have some continuing
                       weaknesses, particularly with respect to market research and
                       contractor surveillance, as well as other problems that need
                       attention. Our review of 28 task orders issued by FedSource on
                       behalf of DOD found the following exceptions:

                       •   No market research was done for 26 task orders with a total
                           value of $12.4 million. DOD ordering facilities did not document
                           their determinations that the use of FedSource was in the best
                           interest of DOD. FedSource files also did not include


3
  While the DOD OIG’s findings were principally directed at DOD, we reported that they pointed to a
need for FedSource to identify what due diligence it should perform when accepting orders to help
prevent the use of incorrect appropriations. The fact that there were no significant exceptions found by
our audit regarding use of DOD appropriations cannot be directly linked to any specific action by
FedSource management. In this regard, it should be noted that DOD issued a number of internal policy
directives over the last several years dealing with the proper use of appropriations for acquisitions,
including acquisitions through non-DOD agencies such as FedSource.
4
  Under DOD procurement requirements, DOD may use funds available for a fiscal year to enter into a
contract for severable services that begin during the fiscal year and end in the next fiscal year as long
as the contract period does not exceed 1 year.


                       ACQUISITIONS: Although Weaknesses Still Exist,                              Page 3
                       the Treasury Franchise Fund Improved Compliance With
                       DOD Procurement Requirements (OIG-08-002)
    documentation of market research before issuing the task
    orders.
•   Competition was inadequate for 4 task orders with a total value
    of $2.8 million. The four task orders were related to FasTrac, a
    program intended to provide federal agencies the capability of
    e-learning and other computer- and web-enabling assistance.
    We determined that from February 2005 to March 2007,
    FedSource issued a total of 125 FasTrac task orders, with a
    total value of $38.2 million, which were not adequately
    competed, lacked proper price analysis, and lacked award
    documentation.
•   Price reasonableness support was either not documented or
    inadequate for 8 task orders with a total value of $4.6 million.
    Three of the 8 task order files did not contain an independent
    Government cost estimate (IGCE). Five of the 8 task orders
    files, 3 of which were FasTrac task orders, contained IGCEs
    that were not dated or dated on or after the same day as the
    task order award.
•   The basis for technical evaluation scores was inadequate for 16
    task orders with a total value of $8.4 million. Two FedSource
    centers lacked a standardized weighting system for scoring
    technical evaluations or a documented methodology for
    performing technical evaluations. One center inappropriately
    added points to its technical evaluation scores if the bidder
    proposed using DOD-suggested subcontractors or personnel.
•   Quality assurance surveillance deficiencies were noted in all 28
    task order files; however 26 task orders files with a total value
    of $12.6 million inadequately documented surveillance. While
    FedSource files contained quality assurance surveillance plans
    (QASP) for all task orders, an improvement over last year, a
    variety of deficiencies were noted in the quality assurance
    surveillance process. These deficiencies included overly broad
    statements of work that did not lend themselves to measurable
    standards of performance.

The exceptions by task order are identified in appendix 2.




ACQUISITIONS: Although Weaknesses Still Exist,                  Page 4
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                     In addition, we found the following:

                     •   ARC compliance reviews of three FedSource centers during
                         2006 identified contracting deficiencies. However, ARC did not
                         obtain detailed corrective actions plans and schedules to
                         address the problems.
                     •   Maximum values were exceeded for five contracts, in violation
                         of competition requirements. The amount by which the ceilings
                         on the five contracts was exceeded totaled nearly $200 million.
                         ARC and FedSource did not monitor task order awards against
                         the contract ceilings in a coordinated manner. While additional
                         controls were put in place, they may be inadequate.
                     •   ARC did not adequately monitor small business contractors’
                         compliance with requirements that at least 50 percent of the
                         cost of services performed under such contracts be expended
                         for services provided by the contractor’s own employees.

                     As we reported in our first audit, management issued a number of
                     policies and procedures to address recommendations made by the
                     Government Accountability Office (GAO) in a July 2005 report on
                     FedSource.5 Many of the same types deficiencies noted by GAO
                     were found in our testing of fiscal year 2005 procurements. This
                     was not unexpected given the recency of FedSource’s corrective
                     actions. We did, however, make five recommendations in our prior
                     audit to further improve FedSource compliance with DOD
                     procurement requirements. These recommendations dealt with
                     matters related to competition, task order file documentation,
                     quality assurance surveillance plans, due diligence in accepting
                     DOD funds, and performance periods for severable services.
                     Management indicated that it had taken or planned actions that
                     were generally responsive to our recommendations. Where we
                     noted continuing weaknesses in our second audit, we are
                     reaffirming our prior recommendations. Where appropriate, we
                     made new recommendations to further refine our prior
                     recommendations or to address additional weaknesses found
                     during this audit.

5
  GAO, Interagency Contracting: Franchise Funds Provide Convenience, but Value to DOD Is Not
Demonstrated, GAO-05-456 (Washing, D.C.: July 29, 2005). The GAO report was based on fiscal year
2003 procurement activities. GAO also reported on DOD’s use of GovWorks, a franchise fund run by
the Department of the Interior.

                     ACQUISITIONS: Although Weaknesses Still Exist,                        Page 5
                     the Treasury Franchise Fund Improved Compliance With
                     DOD Procurement Requirements (OIG-08-002)
             Specifically, as new recommendations, the Commissioner of BPD
             should: (1) issue guidance to FedSource as to the market research
             to be conducted and documented at the task order level, (2) ensure
             that future acquisitions under the FasTrac program use an
             appropriate contract vehicle and are competed, (3) ensure that
             IGCEs are prepared timely and dated accurately, (4) ensure a
             standard technical evaluation methodology is used in all FedSource
             centers, (5) ensure that task order statements of work allow the
             establishment of measurable standards and QASPs that correspond
             to statements of work, (6) ensure that QASPs clearly specify
             surveillance requirements and responsibilities, (7) assess whether
             additional controls are needed to prevent contract ceilings from
             being exceeded, (8) remind contracting personnel of requirements
             to ensure full and open competition, and (9) implement procedures
             to ensure that small business contractors comply with contractual
             requirements for work that must be provided by their own
             employees.

             BPD concurred in general with the findings in our report. Its
             response noted that FedSource was instructed to suspend the
             issuance of new task orders effective October 1, 2007. As our
             recommendations apply to the administration of existing FedSource
             task orders and to current operations, BPD agreed to implement the
             recommendations. BPD’s response is discussed in more detail in
             the Findings and Recommendations section of this report and the
             response is included as appendix 3.


Background
             Franchise Funds

             The Government Management Reform Act of 1994 authorized the
             Office of Management and Budget to establish franchise fund pilot
             programs at six executive branch agencies. Franchise funds are
             government-run, self-supporting, businesslike enterprises managed
             by federal employees. The funds provide a variety of common
             administrative services, such as payroll processing, information
             technology support, employee assistance programs, and

             ACQUISITIONS: Although Weaknesses Still Exist,               Page 6
             the Treasury Franchise Fund Improved Compliance With
             DOD Procurement Requirements (OIG-08-002)
contracting. Franchise funds are required to recover their full cost
of doing business and are allowed to retain up to 4 percent of their
annual income. To cover their costs, the funds charge fees for the
services they provide.

Congress authorized the pilot programs because it expected that
franchise funds would be able to provide common administrative
services more efficiently than each federal agency on its own. In
1996 and 1997, the Office of Management and Budget established
franchise fund pilot programs at the Departments of Commerce,
Health and Human Services, the Interior, the Treasury, and
Veterans Affairs and at the Environmental Protection Agency.
These programs were to expire in 1999, 5 years after passage of
the Government Management Reform Act. The Treasury franchise
fund, however, was extended several times by other legislation.
The Consolidated Appropriations Act of 2005 gave the Treasury
franchise fund permanent status.

Treasury Franchise Fund Entities Used by DOD

The Treasury franchise fund comprises the following entities:
(1) FedSource, (2) ARC, (3) the Federal Consulting Group, and
(4) Treasury Agency Services. Procurement services to DOD are
provided through FedSource and ARC. During fiscal year 2006,
FedSource issued 12,354 task orders on behalf of DOD with a total
value of approximately $166 million.

The acquisition process for the Treasury franchise fund originates at
ARC, which is part of BPD and located in Parkersburg, West
Virginia. ARC performs contract competitions and establishes master
contract vehicles from which FedSource issues task orders to meet
customer needs. In addition, ARC appoints FedSource’s contracting
officers, designates contracting officer’s technical representatives,
and conducts compliance reviews to determine whether Treasury
franchise fund procurement activities are being carried out in
accordance with applicable laws and regulations.

FedSource serves as a liaison between customers and contractors,
develops comprehensive acquisition strategies, works with
customers to develop statements of work, competes and awards

ACQUISITIONS: Although Weaknesses Still Exist,                  Page 7
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
task orders, develops and participates in QASPs, and closes out
completed task orders. To procure property or services, DOD sends
FedSource either a Military Interdepartmental Purchase Request or
an interagency agreement. These funding documents should
describe the type of property or services requested and identify the
appropriation account of the funds being provided. Upon receipt of
the funding documents, FedSource is to review them and, if they
are acceptable, issue task orders against master contracts for the
requested property or services. A funding document may fund
more than one task order.

Key Laws and Regulations

Procurement activities conducted by federal franchise funds are
subject to the same laws and regulations to which other federal
government procurement activities are subject, as well as to any
additional regulations specific to the funding agency. Four of the
principal legal authorities that govern the procurement activities of
this review are the Competition in Contracting Act of 1984 (CICA),
the Federal Acquisition Regulation (FAR), the Defense Federal
Acquisition Regulations Supplement (DFARS), Department of the
Treasury Acquisition Regulation (DTAR) , and the Antideficiency
Act.

CICA generally requires that federal contracts be awarded on the
basis of full and open competition. The purpose of the full and
open competition requirement is to permit the federal government
to rely on competitive market forces to obtain needed goods and
services at fair and reasonable prices. Only when full and open
competition would be impracticable, such as when needs are
urgent or only one source is available, would full and open
competition not be required. In such cases, the approach taken
must be appropriately justified, approved, and documented.

The FAR is the primary regulation for use by all federal executive
agencies in their acquisition of supplies and services with
appropriated funds. It became effective on April 1, 1984, and is
issued within applicable laws under the joint authorities of the
Administrator of General Services, the Secretary of Defense, and
the Administrator of the National Aeronautics and Space

ACQUISITIONS: Although Weaknesses Still Exist,                  Page 8
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                       Administration, under the broad policy guidelines of the
                       Administrator, Office of Federal Procurement Policy, Office of
                       Management and Budget. According to the FAR, contracting
                       officers, as a matter of policy and with certain limited exceptions,
                       must promote and provide full and open competition in soliciting
                       offers and awarding government contracts. Contracting officers are
                       to do this through the use of competitive procedures and are to
                       purchase supplies and services from responsible sources at fair and
                       reasonable prices. The determination of price reasonableness is to
                       be documented in the contract file.

                       DOD implements and supplements the FAR in the DFARS, under
                       the authorization and subject to the authority, direction, and
                       control of the Secretary of Defense. The DFARS requires, with
                       certain exceptions, that each DOD procurement exceeding
                       $100,000 under a multiple award contract be made on a
                       competitive basis. Multiple award contracts are contracts issued
                       under the same solicitation to two or more sources. The sources to
                       which multiple awards are issued must agree to provide the same or
                       similar supplies and services at fixed prices during a fixed period, and
                       the government agrees to purchase a minimum quantity from each
                       contractor. For multiple award contracts, the contracting officer
                       must fulfill the “competitive basis” requirement by providing fair
                       notice to all contractors offering the required supplies or services
                       and ensure that the contractors are afforded a fair opportunity to
                       submit an offer and have that offer fairly considered.6 For task
                       orders under multiple award contracts, the FAR requires that
                       contracting officers provide contractors fair opportunity to be
                       considered for orders exceeding $3,000. It also requires
                       contracting officers to document in the contract file the rationale
                       for placement and price of each order.




6
  This DFARS provision implements section 803 of the NDAA for Fiscal Year 2002, enacted as
Pub. L. No. 107-107 on December 28, 2001. As stated in the DFARS, exceptions to the fair
opportunity process apply when (1) only one contractor is capable of providing the supplies or services
required at the level of quality required because the supplies or services are unique or highly specialized
or (2) the order must be issued on a sole source basis in the interest of economy and efficiency because
it is a logical follow-on to an order already under the contract, provided that all awardees were given a
fair opportunity to be considered for the original order.

                       ACQUISITIONS: Although Weaknesses Still Exist,                               Page 9
                       the Treasury Franchise Fund Improved Compliance With
                       DOD Procurement Requirements (OIG-08-002)
                         The DTAR is issued for Departmental guidance in accordance with
                         the policy cited in FAR.7 The DTAR establishes uniform Treasury
                         policies and procedures for all acquisition activities within the
                         Department of the Treasury, except the United States Mint. The
                         DTAR is under the direct oversight and control of Treasury's Office
                         of the Procurement Executive, which is responsible for evaluation,
                         review, and issuance of all Department-wide acquisition regulations
                         and guidance. The Treasury DTAR Council will review proposed
                         revisions to the DTAR and make recommendations. Each bureau
                         chief procurement officer may supplement the DTAR. Bureaus
                         proposing to issue regulatory supplements or use solicitation and/or
                         contract clauses on a repetitive basis must forward them to the
                         Senior Procurement Executive for concurrence prior to publication
                         in the Federal Register.

                         The Antideficiency Act prohibits federal government officials from
                         making payments or committing the United States to make
                         payments for goods or services unless Congress has appropriated
                         sufficient funds to pay for the goods or services. Among other
                         things, the law prohibits the federal government from using funds
                         for other than their intended purpose or making or authorizing
                         expenditure from, or creating or authorizing an obligation under,
                         any appropriation or fund in excess of the amount available in the
                         appropriation or fund unless authorized by law.8


Findings and Recommendations

Finding 1                DOD and FedSource Did Not Conduct Required Market
                         Research and FedSource Awarded Certain Task Orders
                         Without Adequate Competition

                         We found no evidence that market research had been conducted
                         by the DOD ordering facility or FedSource for the goods and
                         services procured through 26 task orders, which had a total value
                         of $12.4 million. As a result, DOD was not assured that the goods
                         and services were obtained at the best value. For four of these task

7
    FAR 1.301
8
    31 U.S.C. § 1341(a) (1) (A).

                         ACQUISITIONS: Although Weaknesses Still Exist,                Page 10
                         the Treasury Franchise Fund Improved Compliance With
                         DOD Procurement Requirements (OIG-08-002)
                      orders, related to e-learning services under a program referred to as
                      FasTrac, FedSource did not consider contract vehicles other than a
                      multiple award contract established by ARC, which was
                      inappropriate to fulfill DOD’s need. It further limited competition to
                      just 2 of the 9 available contractors without justification. In total,
                      FedSource issued 125 task orders to the selected contractor for
                      FasTrac with a total value of $38.2 million. We determined they
                      were inadequately competed.

                      The FAR requires that agencies perform acquisition planning and
                      conduct market research for all acquisitions to ensure that the
                      federal government meets its needs in the most effective,
                      economical, and timely manner.9 Agencies must use market
                      research results to determine sources capable of satisfying agency
                      requirements.10 Accordingly, when placing orders for goods and
                      services, it is incumbent on DOD to support its decision to use
                      FedSource.11 Also, when issuing task orders, FedSource must
                      likewise determine the most appropriate sources and methods for
                      acquiring the goods and services.

                      DOD Ordering Facilities Did Not Perform Market Research

                      The 26 task orders in our sample were issued on behalf of 14 DOD
                      ordering facilities. We visited 6 of the ordering facilities to examine
                      the contracting files. We also interviewed the DOD project officers
                      for the remaining sampled task orders about their methods and
                      documentation of market research. We found that none of the files
                      reviewed contained evidence showing how the facility determined
                      that using FedSource was in the best interest of DOD. Contracting
                      staff at 2 of the facilities we visited told us that the reasons for
                      using FedSource were discussed in meetings, but no
                      documentation was maintained of these discussions. We
                      interviewed contracting staff at the DOD ordering facilities we did


9
  FAR 7.102.
10
   FAR 10.001(a) (3).
11
   In October 2004, military departments and defense agencies were directed by internal DOD policy to
establish procedures for reviewing and approving the use of non-DOD contract vehicles, including those
through non-DOD entities. Among other things, the procedures were to include an evaluation as to
whether using a non-DOD contract was in the best interest of DOD.

                      ACQUISITIONS: Although Weaknesses Still Exist,                           Page 11
                      the Treasury Franchise Fund Improved Compliance With
                      DOD Procurement Requirements (OIG-08-002)
                       not visit and they told us that they had not conducted market
                       research before placing orders through FedSource.

                       FedSource Did Not Perform Market Research at the Task Order
                       Level

                       FedSource’s files for the 26 task orders also lacked evidence of
                       market research. In this regard, we determined that FedSource did
                       not consider contract vehicles other than a multiple award,
                       indefinite delivery/indefinite quantity (IDIQ) contract12 established
                       by ARC specifically for FedSource’s use (referred to as the
                       FedSource 9).13

                       FasTrac Tasks Orders Were Not Competed

                       Four task orders in our sample valued at $2.8 million were related
                       to FasTrac, a program intended to provide federal agencies the
                       capability of e-learning and other computer- and web-enabling
                       assistance. We determined that from February 2005 to March
                       2007, FedSource issued a total of 125 FasTrac task orders, with a
                       total value of $38.2 million, which were not adequately competed,
                       lacked proper price analysis, and lacked award documentation.

                       In February 2005, FedSource issued the initial, no-cost FasTrac
                       task order with a 1-year base period and three 1-year option
                       periods. In February 2006, FedSource exercised the first option
                       year. According to FedSource, the second option year has also
                       been exercised, extending the period of performance to February
                       2008.

                       The FAR requires that contracting officers provide full and open
                       competition through use of the competitive procedures that are
                       best suited to the circumstances of the contract actions.14 In
                       addition, the fiscal year 2002 NDAA required that for all service

12
   An IDIQ contract is a type of contract used when the precise amounts of supplies or services during a
specific period cannot be determined.
13
   The FedSource 9 contract was developed to provide administrative support services. In total, there
were 9 awardees, including three small business concerns. FedSource used this contract vehicle to
solicit proposals when fulfilling customer agency needs for these types of services.
14
   FAR 6.101(b).

                       ACQUISITIONS: Although Weaknesses Still Exist,                           Page 12
                       the Treasury Franchise Fund Improved Compliance With
                       DOD Procurement Requirements (OIG-08-002)
                       orders exceeding $100,000 placed under multiple award contracts
                       (which applies to the four FasTrac task orders in our sample), the
                       contracting officer should contact as many schedule holders as
                       practical who are capable of performing the work, to ensure that at
                       least three responses are received.15

                       Neither ARC nor FedSource files contained documentation
                       supporting how the FasTrac task orders conformed to the FAR and
                       other contracting requirements. For example, FedSource requested
                       proposals for the FasTrac program from only two small business
                       concerns under the FedSource 9 multiple award contract. The
                       reason for limiting the request for proposals to just these small
                       business concerns was not documented.

                       The ARC contracting officer involved with the initial task order
                       award could not explain why ARC used the FedSource 9 contract
                       vehicle for the FasTrac requirements. The current ARC contracting
                       officer for the FasTrac program acknowledged that that the
                       FasTrac requirements were inconsistent with the FedSource 9
                       contractor’s statement of work.

                       Recommendations

                       Previously, we recommended that FedSource ensure that the
                       contract files for all new task order awards and modifications to
                       existing task orders include documentation of required competition,
                       market research, and price reasonableness. In its response to the
                       report, management concurred with the recommendation and
                       stated that actions had been taken including the issuance of new
                       policies and procedures and training.16 This finding reaffirms the
                       need for continued focus to ensure that these actions are
                       implemented and effective.

                       Management also stated in its response that FedSource market
                       research is done at the overarching contract level in the acquisition

15
   National Defense Authorization Act for Fiscal Year 2002, § 803, Pub. L. No. 107-107 (Dec. 28,
2001).
16
   The management response was provided by the Treasury Deputy Chief Financial Officer to whom
FedSource reported at that time. Effective April 2007, responsibility for program direction and oversight
of FedSource was transferred to BPD.

                       ACQUISITIONS: Although Weaknesses Still Exist,                             Page 13
                       the Treasury Franchise Fund Improved Compliance With
                       DOD Procurement Requirements (OIG-08-002)
                   planning stages. We noted in our prior report that market research
                   was still required to determine the best approach to acquire the
                   specific services and property requested by DOD. The need for
                   acquisition planning and market research at the task order level is
                   clearly demonstrated by the problems noted with the FasTrac task
                   orders. To avoid such problems in the future and to address
                   contracting deficiencies for the FasTrac program, we are making
                   two new recommendations.

                   Specifically, we recommend that the Commissioner of BPD should
                   do the following:

                   1. issue guidance to FedSource as to the market research to be
                      conducted and documented at the task order level.

                   2. take appropriate actions to ensure that that future e-learning
                      products and services under the FasTrac program are acquired
                      using an appropriate contract vehicle and adequately competed.

                   Management Response BPD instructed FedSource to suspend the
                   issuance of new task orders effective October 1, 2007. Although
                   FedSource is in the process of shutting down its procurement
                   activities, BPD’s Division of Procurement Services will implement
                   these recommendations, as applicable, to existing FedSource task
                   orders.

                   OIG Comment The actions proposed by the BPD, if implemented as
                   described, satisfy the intent of the recommendations.

      Finding 2    Task Order Files Lacked Adequate Evidence of Price
                   Reasonableness

                   Contracting officers are responsible for obtaining adequate
                   information to evaluate price reasonableness and for documenting
                   this information and how it was obtained.17 Of the 28 task order
                   files that we reviewed, we determined that 8, with a total value of
                   $4.6 million, did not contain adequate evidence of price
                   reasonableness. Three of the 8 task order files did not contain an

17
     FAR 15.402.

                   ACQUISITIONS: Although Weaknesses Still Exist,                Page 14
                   the Treasury Franchise Fund Improved Compliance With
                   DOD Procurement Requirements (OIG-08-002)
                        independent Government cost estimate (IGCE), which is the
                        Government’s basis for comparing costs proposed by contractors.
                        Five of the 8 task orders files, 3 of which were FasTrac task
                        orders, contained IGCEs that were not dated or dated on or after
                        the same day as the task order award.

                        The FAR states that before making the award the contracting
                        officer must determine and document that the proposed price is fair
                        and reasonable by competitive quotes or offers and if only one
                        response is received, a statement of price reasonableness is
                        included in the contract file. The contracting officer may base the
                        price reasonableness on a combination of comparative analysis
                        such as: (1) market research; (2) comparison of the proposed price
                        with prices found reasonable on previous purchases; (3) current
                        price list, catalogs, or advertisements; (4) a comparison of similar
                        items in a related industry; (5) the contracting officer’s personal
                        knowledge of the item; (6) comparison of an IGCE; and (7) any
                        other reasonable basis.18 In accordance with FedSource Acquisition
                        Procedure Memo 05-06, dated June 22, 2005, the IGCE is to be
                        prepared in advance of receiving any information from the
                        contractor, and is to be signed and dated by the preparer.

                        Our review of the task order files included determining whether
                        two or more responsible proposals had been submitted to fulfill the
                        task order requirement. If two or more proposals were received and
                        the task order was awarded to the lowest bidder, we determined
                        the pricing was based on adequate competition. If the award was
                        made to a bidder other than lowest bidder, we looked at the
                        technical evaluation, the IGCE, and other evidence supporting price
                        reasonableness. We looked for reasonable sources of data used by
                        the contracting officer, such as Department of Labor’s wage
                        determinations and General Services Administration price
                        schedules, historical cost data, salary.com data, and market survey
                        data. Such data should have been documented on the IGCE. If the
                        IGCE was not included in the file, lacked such data, or the
                        technical evaluation was flawed as discussed in Finding 3, we
                        determined that the evidence of price reasonableness was not
                        adequate. Additionally, if the IGCE included reasonable data but

18
     FAR 13.106-3(a).

                        ACQUISITIONS: Although Weaknesses Still Exist,               Page 15
                        the Treasury Franchise Fund Improved Compliance With
                        DOD Procurement Requirements (OIG-08-002)
                  was not properly dated and signed, we concluded that price
                  reasonableness had not been timely determined.

                  Recommendation

                  Previously, we recommended that FedSource ensure that the
                  contract files for all new task order awards and modifications to
                  existing task orders include documentation of price reasonableness.
                  We reaffirm this recommendation. To address the deficiencies
                  noted with IGCEs in this audit, we are making one new
                  recommendation.

                  Specifically, we recommend that the Commissioner of BPD direct
                  FedSource to ensure that IGCEs are prepared timely and dated
                  accurately.

                  Management Response BPD instructed FedSource to suspend the
                  issuance of new task orders effective October 1, 2007. Although
                  FedSource is in the process of shutting down its procurement
                  activities, BPD’s Division of Procurement Services will implement
                  this recommendation, as applicable, to existing FedSource task
                  orders.

                  OIG Comment The actions proposed by the BPD, if implemented as
                  described, satisfy the intent of the recommendations.

Finding 3         FedSource Did Not Always Document Its Decision
                  Process

                  According to the FAR, the contracting officer shall document in the
                  contracting file the rationale for placement and price of each task
                  order, including the basis for award and the rationale for any
                  tradeoffs among cost or price and non-cost considerations in
                  making the award decision. That being said, this documentation
                  need not quantify the tradeoffs that led to the award decision.19

                  Sixteen of the 28 task orders that we reviewed lacked adequate
                  documentation to support their decision process. The 16 task

19
     FAR 16.505

                  ACQUISITIONS: Although Weaknesses Still Exist,               Page 16
                  the Treasury Franchise Fund Improved Compliance With
                  DOD Procurement Requirements (OIG-08-002)
orders, with a total value of $8.4 million, were issued by two of
the three FedSource centers from which we selected samples for
review—Baltimore and Los Angeles.

Although not required but nevertheless a good practice, FedSource
used a technical evaluation scoring process when awarding task
orders. Neither the Baltimore nor the Los Angeles FedSource
center, however, had a standardized weighting system for scoring
technical evaluations or a documented methodology for performing
technical evaluations. The two centers assigned numeric scores to
express a vendor’s ability to perform the required work, but the
task order files lacked any documentation of the methodology used
to derive the scores and no documentation was provided during the
review. The task order files that we reviewed noted that technical
evaluation criteria when combined are significantly more important
than cost or price. When this is the case, the rationale or
methodology should support the numerical scores.

We also found that the Baltimore center inappropriately added
points to the technical evaluations of bidders who proposed using
subcontractors and personnel that DOD had suggested. Nothing in
FAR allows a contracting officer to give additional points to a
bidder who proposes using a suggested source, and such a
practice gives that bidder an unfair advantage.

Managers at both the Baltimore and Los Angeles FedSource
centers said that they did not have a standard methodology for
performing technical evaluations, but were in the process of
updating their price negotiation memoranda procedure, which
would include a methodology for technical evaluations. The lack of
a standard process along with the lack of documentation to
support what took place in this area can open the door to
questions about whether the selection process followed applicable
procedures and whether valid criteria were used to acquire the
services and supplies DOD required.

The third FedSource center from which our sample was selected,
San Antonio, used a standardized system for scoring and
documenting technical evaluations. No exceptions with respect to


ACQUISITIONS: Although Weaknesses Still Exist,               Page 17
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
            technical evaluations were noted in the sampled task orders from
            the San Antonio center.

            Recommendation

            We recommend that the Commissioner of BPD direct FedSource to
            ensure that a standard technical evaluation methodology is
            established and used for all task orders at all centers. This is a new
            recommendation.

            Management Response BPD instructed FedSource to suspend the
            issuance of new task orders effective October 1, 2007. Although
            FedSource is in the process of shutting down its procurement
            activities, BPD’s Division of Procurement Services will implement
            these recommendations, as applicable, to existing FedSource task
            orders.

            OIG Comment The actions proposed by the BPD, if implemented as
            described, satisfy the intent of the recommendations.

Finding 4   FedSource’s Quality Assurance Surveillance
            Documentation Remains Inadequate

            Previously, we reported that FedSource task orders lacked
            adequate evidence of quality assurance surveillance. The DOD OIG,
            in its audit, also reported a lack of adequate evidence of quality
            assurance surveillance. Specifically, we found that not all task
            order files contained a surveillance plan. We observed improvement
            in this area since our prior audit—we found during this audit that
            QASPs had been developed for each task order in our sample. For
            2 of the 28 task order files, surveillance was performed and
            documented. Overall, however, we identified continued deficiencies
            in contractor surveillance. Specifically we found the following:

            •   For 19 task orders, the frequency of surveillance as identified in
                the QASP did not correspond to the frequency of surveillance
                described in the statement of work.
            •   For 2 task orders, the QASP did not identify the frequency of
                surveillance.

            ACQUISITIONS: Although Weaknesses Still Exist,                  Page 18
            the Treasury Franchise Fund Improved Compliance With
            DOD Procurement Requirements (OIG-08-002)
                  •   For 11 task orders, the statements of work were written too
                      broadly to create meaningful measures of performance in the
                      related QASPs. Likewise, the performance standards in the
                      QASPs were too broad to measure.
                  •   For 5 task orders, the QASPs lacked sufficiently specific
                      performance standards. Three simply said, “see statement of
                      work,” and two had deliverables that were not included in the
                      statement of work.
                  •   For 26 task orders, FedSource’s files lacked documentation of
                      surveillance.

                  We also noted for one task order, issued on August 25, 2006, for
                  commercially available software licenses under the FasTrac
                  program, the product was not received until October 12, 2006, 12
                  days after the period of availability of the DOD appropriation used
                  to fund the order.20 FedSource’s task order file did not show what
                  follow-up was done to obtain the items before the end of the fiscal
                  year. Under appropriations law, the concept of funds availability
                  has three elements: purpose, time, and amount. All three must be
                  observed for an obligation or expenditure to be legal. In that the
                  licenses appeared to be ordered in sufficient time to be received
                  before the end of the fiscal year and were in fact received shortly
                  thereafter, we concluded that this was not a significant exception.
                  However, FedSource needs to ensure commercial items ordered
                  late in the fiscal year of funding are timely received.

                  During our audit, we interviewed the DOD project officers for the
                  sampled task orders about their methods and documentation of
                  surveillance. We also reviewed the project officers’ records at 4
                  DOD facilities covering 13 of sampled task orders. The project
                  officers interviewed told us that they were generally unfamiliar of
                  the QASPs but had independently developed their own methods of
                  surveillance. For example, project officers for service-type task
                  orders indicated that they approved contractor employee timecards
                  and assessed contractor employee performance on a periodic basis.
                  We consider the procedures as described by the project officers to
                  be a reasonable approach for the particular task order. In the
                  project officers’ files we reviewed, we saw some evidence of

20
     LOS015623.

                  ACQUISITIONS: Although Weaknesses Still Exist,               Page 19
                  the Treasury Franchise Fund Improved Compliance With
                  DOD Procurement Requirements (OIG-08-002)
surveillance including notes related to contractor employee
performance, time worked, and products produced. However, there
was generally lacking a standard approach to documenting
surveillance by the DOD project officer and providing evidence of
surveillance to FedSource. Without such evidence, FedSource lacks
assurance that contractors are performing at acceptable levels.

Recommendations

We reaffirm the recommendation in our prior audit report that
FedSource work with DOD to establish controls to ensure that
(a) quality assurance surveillance plans are established for all task
orders; (b) contracting officer’s technical representative designation
letters clearly delineate who is responsible for performing
monitoring, consistent with quality assurance surveillance plan
instructions, and how monitoring is to be documented for each
assigned task order; and (c) documented monitoring occurs before
contractors are paid. To more explicitly address the problems with
contractor surveillance noted during our second audit, we are
making two new recommendations.

Specifically, we recommend that the Commissioner of BPD direct
FedSource to do the following:

1. ensure that task order statements of work allow the
   establishment of measurable standards and QASPs that
   correspond to statements of work.

2. establish QASPs for DOD and other customer agencies as
   appropriate that specify: (a) all work requiring surveillance and
   the method of surveillance to be used, (b) areas of customer
   agency responsibility and areas of FedSource responsibility, and
   (c) when and in what form surveillance results should be
   provided by the customer agency to FedSource.

Management Response BPD recognizes the challenges and benefits
of promoting the use of performance-based-acquisition criteria in all
eligible service acquisitions. In support of that effort, BPD
scheduled a performance-based work statement writing course in
November 2007 for Division of Procurement Services personnel.

ACQUISITIONS: Although Weaknesses Still Exist,                 Page 20
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                         Providing adequate surveillance of the remaining FedSource task
                         orders also continues to be an area of concern. Acquisition Center
                         Procedure Memo 07-03, dated January 19, 2007, was issued as a
                         result of continued compliance findings related to surveillance. This
                         policy requires that the designated Project Officer at each customer
                         agency sign a letter of acceptance of responsibility for their role to
                         monitor and report performance information to the contracting
                         officer’s technical representative at FedSource. As FedSource
                         staffing levels decline, it is anticipated that BPD procurement
                         personnel will become more involved in oversight and surveillance
                         to supplement the staff on continuing orders through completion,
                         currently scheduled to end no later that September 30, 2008.

                         OIG Comment The actions proposed by the BPD, if implemented as
                         described, satisfy the intent of the recommendations.

Finding 5                ARC Compliance Reviews of FedSource Identified
                         Contracting Deficiencies But Did Not Ensure Corrective
                         Action Was Taken
                         In June 2004, ARC established a program whereby it would
                         conduct “assistance visits” to FedSource’s centers on a 3-year
                         cycle for the purpose of encouraging and facilitating improved
                         FedSource acquisition operations, fostering the use of industry best
                         practices, and assessing the center’s compliance with federal
                         acquisition requirements. ARC also developed an extensive guide
                         for conducting and reporting on the visits.21

                         We reviewed ARC’s reports for assistance visits conducted during
                         2006 at FedSource’s Baltimore, Los Angeles, and Seattle centers.
                         The reports identified deficiencies that were consistent with our
                         findings in the areas of price reasonableness, QASP
                         documentation, and technical evaluations. In general, the reports
                         evidenced that ARC’s review process was substantive.

                         However, the reporting process described in the ARC guide was
                         not followed for these reviews and action plans were not
                         established to correct the noted deficiencies. In this regard, the

21
     FedSource Acquisition Assistance Visit Guide dated June 8, 2004, Division of Procurement, ARC.

                         ACQUISITIONS: Although Weaknesses Still Exist,                         Page 21
                         the Treasury Franchise Fund Improved Compliance With
                         DOD Procurement Requirements (OIG-08-002)
ARC guide provides that the reviewer issue a draft report on each
visit and obtain, within 30 days, the FedSource center’s comments
along with its corrective action plan and schedule for identified
deficiencies. The reviewer is to then analyze the comments and the
corrective action plans and schedules, and if considered
satisfactory issue a final report within 14 days. The final report is
to incorporate and address as appropriate the comments and
corrective action plans and schedules.

We found that the three reports issued on the 2006 assistance
visits did not include the FedSource centers’ comments and
corrective action plans and schedules. We also noted that the
reports on the Los Angeles and Seattle centers were not dated, or
indicated whether the reports were draft or final. The report on the
Baltimore center was dated August 31, 2006, but the report was
also not marked as either draft or final. ARC did receive comments
from the Baltimore center dated November 2006. The comments,
while disputing some of ARC’s findings, did make a general
statement that the center would implement ARC’s
recommendations. However, the comments did not include a
detailed corrective action plan and schedule.

We interviewed ARC’s lead reviewer for the 2006 assistance visits.
The reviewer confirmed our observations that the reports did not
include FedSource’s comments. The reviewer stated that
comments were not provided by the Los Angeles and Seattle
centers, and ARC did not try to obtain the comments. Additionally,
the reviewer stated that detailed corrective actions plans and
schedules were not obtained from any of the 3 centers reviewed.
The reviewer acknowledged that the Baltimore center’s November
2006 comments did dispute some of the review findings; however,
the reviewer considered the findings to be valid. We asked why the
reporting process in the ARC guide was not followed for these
reviews. The reviewer stated that while the process was the
preferred way to go, ARC at the time did not have management
authority over FedSource to force corrective action. The reviewer
also stated that the areas found deficient in the 2006 reviews
would be the initial focus of subsequent reviews.



ACQUISITIONS: Although Weaknesses Still Exist,                Page 22
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
            We also interviewed the ARC contracting officer with overall
            responsibility for the assistance visit program. The contracting
            officer stated in November 2006, the assistance visit program was
            put on hold when Treasury initiated a review of the FedSource
            model. In April 2007, Treasury decided to transition out of the
            FedSource business by September 2008 and further assistance
            visits are not contemplated. Accordingly, we are making no
            recommendations to address the weaknesses noted with the
            reporting process for the assistance visits. However, should ARC
            reinstitute this program, it should ensure that appropriate corrective
            actions plans and schedules are developed and implemented to
            address noted deficiencies.

Finding 6   ARC and FedSource Did Not Have Adequate Controls to
            Prevent Contract Ceilings From Being Exceeded

            As discussed in our prior audit report, Treasury’s Office of General
            Counsel informed the Department that contracting and budgetary
            control weaknesses exist in the franchise fund and may have
            allowed a potential violation of both the Competition in Contracting
            Act (CICA) and the Antideficiency Act for exceeding a contract
            ceiling without proper competition. The contract in question was
            an IDIQ contract for copiers and related services awarded by ARC
            in 2001 with a contract ceiling of $50 million. FedSource issued
            task orders against the contract on behalf of its customer agencies.
            In October 2006, the Department referred the matter to the
            Treasury OIG Office of Investigations. The OIG investigation
            substantiated the CICA violation on the contract and identified
            three other contracts for which the contract ceiling had been
            exceeded. The investigation also determined that no crimes or
            serious employee misconduct had occurred. However, the
            investigation noted that either certain Treasury procurement and
            management officials lacked CICA knowledge or those who
            understood CICA requirements did not view a CICA violation as
            being a significant issue. These matters were communicated to the
            Commissioner of BPD by the Assistant Inspector General for
            Investigations in a memorandum dated April 18, 2007.




            ACQUISITIONS: Although Weaknesses Still Exist,                 Page 23
            the Treasury Franchise Fund Improved Compliance With
            DOD Procurement Requirements (OIG-08-002)
                        CICA requires procurement through full and open competitive
                        procedures. Contracting officers are required, with certain limited
                        exceptions, to promote and provide for full and open competition in
                        soliciting offers and awarding Government contracts.22 For
                        indefinite-quantity contracts, such as those ARC established for
                        FedSource, the contracting officer should establish a reasonable
                        maximum quantity based on market research, trends on recent
                        contracts for similar supplies or services, survey of potential users,
                        or any other rational basis. The solicitation and contract for an
                        indefinite quantity must specify the total minimum and maximum
                        quantity of supplies or services the Government will acquire under
                        the contract.23 The DTAR requires that all contract modifications
                        increasing the estimated value of the contract by 50 percent or
                        more must be approved by the Treasury bureau chief procurement
                        officer prior to execution. The contracting officer must include in
                        the contract file a determination that a proposed modification is
                        within the general scope of the agreement. Additionally, the DTAR
                        requires that legal counsel be consulted in doubtful or unusual
                        situations such as when modifications, other than original contract
                        options increase the total contract price by 20 percent or more.24

                        We expanded the scope of our review to determine whether the
                        ceiling was exceeded on any additional ARC-awarded contracts.
                        Our work did identify one additional contract where this deficiency
                        occurred. The amount by which the ceilings on all five contracts
                        were exceeded totaled nearly $200 million as of August 2007. This
                        amount included approximately $47 million associated with the
                        copier contract that was referred to Treasury OIG for investigation.

                        According to ARC and FedSource personnel, the violations
                        occurred because neither FedSource nor ARC was monitoring task
                        order awards against the contract ceilings in a coordinated manner.
                        Both thought the other was tracking the contract ceiling. In fiscal
                        years 2005 and 2006, ARC and FedSource were tracking contract
                        ceilings through a combination of manual spreadsheets. The ARC
                        spreadsheets tracked only task order base year obligations that
                        FedSource was entering into BPD’s accounting system. ARC did
22
     FAR 6.101, which references competition requirements cited in 10 U.S.C. 2304 and 41 U.S.C. 253.
23
     FAR 16.504
24
     DTAR 1043.102

                        ACQUISITIONS: Although Weaknesses Still Exist,                        Page 24
                        the Treasury Franchise Fund Improved Compliance With
                        DOD Procurement Requirements (OIG-08-002)
not realize until early fiscal year 2005 that this was inadequate
because the values in BPD’s spreadsheets did not reflect
substantial potential option year values of the FedSource task
orders. ARC required that FedSource begin to track and report an
“all options value” of its task orders within its system and report
this to ARC. FedSource had to have its systems development
contractor create a field within its database, which was populated
with the all options values so that reports could be run. By late
spring 2006, reports were being run that better tracked obligations
associated with issued task orders against contract ceilings.

Despite this control procedure, contract ceilings are still at risk of
being exceeded according to a January 2007 study by Treasury’s
Office of the Procurement Executive. This can occur if FedSource
is invoiced for rendered services in an amount that exceeds the
amount that FedSource obligated for the task order. FedSource and
ARC management told us that they agreed this risk existed and
that corrective action is needed.

Recommendations

We recommend that the Commissioner of BPD do the following:

1. direct ARC and FedSource to assess whether additional controls
   are necessary to ensure amounts obligated for FedSource task
   orders more closely match the amounts expected to be invoiced
   for work done under those task orders. The purpose of this
   recommendation is to address the risk identified by the Office of
   the Procurement Executive that contract ceilings could still be
   exceeded as contractors submit invoices to FedSource for
   payment.

2. ensure that ARC and FedSource contracting personnel are
   reminded of requirements to ensure full and open competition in
   accordance with CICA.

These are new recommendations.

Management Response On November 6, 2006, BPD implemented a
daily reporting strategy called the Control Model Process, which

ACQUISITIONS: Although Weaknesses Still Exist,                 Page 25
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                       requires every order transaction anticipated by FedSource to be
                       reported prior to award to BPD for approval and tracking against
                       contract ceilings. Additionally, effective October 1, 2007,
                       FedSource has not awarded any new task orders. Consequently,
                       competition training is not scheduled for FedSource personnel.
                       However, Competition in Contracting Act training is scheduled for
                       all BPD contracting officers in December 2007. There are no future
                       excesses anticipated as a result of the control model tracking.

                       OIG Comment The actions taken or proposed by BPD, if
                       implemented as described; satisfy the intent of the
                       recommendations.

Finding 7              ARC Does Not Know If Small Business Contractors
                       Complied With Requirements Governing Use of Personnel

                       During our audit, we found that ARC does not know whether two
                       of its three small business contractors under the FedSource 9
                       multiple award contracts are meeting the requirement that 50
                       percent of the cost of services performed under such contracts be
                       expended for services provided by the contractor’s own
                       employees. Specifically, the FAR requires that entities awarded
                       small business set-aside contracts,25 or procurements for which
                       they have claimed a 10 percent small disadvantaged business price
                       evaluation preference,26 agree that, in the case of service contracts
                       (except construction), at least 50 percent of the contract cost for
                       personnel will be for services provided by its own employees.27
                       FAR makes it the contracting officer’s responsibility to ensure
                       compliance with this requirement.28

                       ARC has three small business contractors under the FedSource 9
                       multiple award contract. For the contractors to report compliance
                       with the 50 percent requirement, the ARC contracting officer
25
   Set-asides are procurements reserved totally or partly for a certain type of contractor, such as small
businesses.
26
   Small businesses that have been certified by the Small Business Administration as small
disadvantaged businesses may qualify for a price evaluation adjustment of up to 10 percent when they
submit bids on certain competitively awarded federal contracts.
27
   FAR 52.219-14.
28
   FAR 1.602-2.

                       ACQUISITIONS: Although Weaknesses Still Exist,                             Page 26
                       the Treasury Franchise Fund Improved Compliance With
                       DOD Procurement Requirements (OIG-08-002)
provided each with a spreadsheet on which to enter the
percentages of personnel service costs billed by the prime
contractor and by subcontractors. ARC’s unwritten process calls
for follow-up by the contracting officer only if a contractor reports
that it has not met the 50 percent requirement. ARC’s unwritten
process did not include verification of spreadsheet reports
submitted.

To date, only one of the three small business contractors has
provided ARC with a completed spreadsheet. The other two have
not submitted the spreadsheet to report percentages of personnel
cost for the past 4 years. According to the ARC contracting officer,
Treasury has no idea whether these two contractors are complying
with the 50 percent rule. We asked the contracting officer why
ARC had not done anything more to obtain the information. The
contracting officer stated only that she sent them the spreadsheet,
they did not respond, and she did not follow up.

If Treasury does not enforce small business contractors’ with the
50 percent requirement, it is not ensuring that the objectives of the
Government’s small business program are being achieved.

Recommendation

We recommend that the Commissioner of BPD instruct ARC to
develop and implement written procedures to ensure that small
business contractors are complying with contractual requirements
for the percentage of work that must be provided by their own
employees. This is a new recommendation.

Management Response Guidance has been issued internally to
BPD’s Division of Procurement regarding monitoring and reporting
procedures to be applied to all appropriate small business
contracts. Language has been drafted and a form is now provided
to small businesses responsible for reporting under the Limitations
on Subcontracting clause 52.219-14, to ensure appropriate
tracking of performance percentages on applicable contracts.

OIG Comment The actions taken by BPD, if implemented as
described, satisfy the intent of our recommendation.

ACQUISITIONS: Although Weaknesses Still Exist,                  Page 27
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                                 ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. The major contributors to this report are identified
in appendix 5. If you have any questions, please contact me at
(202) 927-4879.



Cynthia S. Milanez
Acting Director, Manufacturing and Procurement Audits




ACQUISITIONS: Although Weaknesses Still Exist,                  Page 28
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                        Appendix 1
                        Objective, Scope, and Methodology




                        The Treasury franchise fund, through its FedSource and
                        Administrative Resources Center components, provides contracting
                        assistance to the Department of Defense (DOD) for a fee. As
                        required by section 811 of the National Defense Authorization Act
                        (NDAA) for Fiscal Year 2006, the DOD Office of Inspector General
                        (OIG) and our office jointly reviewed the procurement policies,
                        procedures, and internal controls of the Treasury franchise fund.
                        Our objective, stated in the law, was to determine whether
                        Treasury is or is not compliant with DOD procurement requirements
                        based on its fiscal year 2006 procurement of property and services
                        on behalf of DOD. In accordance with NDAA we previously audited
                        Treasury compliance with DOD procurement requirements during
                        fiscal year 2005. We determined in our prior audit that Treasury
                        was not compliant with DOD procurement requirements but had a
                        program to significantly improve compliance.29

                        We reviewed applicable DOD appropriations laws and applicable
                        Federal Acquisition Regulation and DOD regulations and
                        procurement requirements. Additionally, we reviewed FedSource’s
                        procurement policies, procedures, and internal controls applicable
                        to the procurement of property and services on behalf of DOD,
                        including policies and procedures established in response to our
                        previous report. We also interviewed Treasury franchise fund
                        officials and staff.

                        To test compliance with DOD procurement requirements, DOD OIG
                        identified a universe of 143 FedSource task orders representing
                        high dollar amounts and DOD ordering offices with high volume
                        transactions between July 1 and September 30, 2006 and selected
                        a sample of 57 task orders from this universe for detailed testing.
                        We concurred with DOD OIG’s approach and reviewed FedSource’s
                        files for 28 of the 57 task orders. We also interviewed the DOD
                        project officers for the task orders and for 13 task orders, visited
                        the DOD ordering facility to review the project officers’ files.30 The
                        amount funded by DOD for the 28 task orders totaled $12.9 million
                        and were awarded by FedSource’s centers in Baltimore, Maryland;
                        San Antonio, Texas; and Los Angeles, California. We examined the

29
     OIG-07-026.
30
     DOD OIG concurrently reviewed 29 of the 57 sample task orders using the same methodology.

                        ACQUISITIONS: Although Weaknesses Still Exist,                       Page 29
                        the Treasury Franchise Fund Improved Compliance With
                        DOD Procurement Requirements (OIG-08-002)
Appendix 1
Objective, Scope, and Methodology




files for documentation supporting compliance with applicable
Federal Acquisition Regulation and DOD procurement requirements,
specifically requirements related to market research, competition,
price reasonableness, funding, and contractor surveillance.

We also reviewed contract files at the Administrative Resource
Center, located at the Bureau of the Public Debt in Parkersburg,
West Virginia, for the multiple-award contract and two blanket
purchase agreements that were master contract vehicles under
which FedSource awarded the 28 task orders we tested. We also
reviewed additional contracts to determine whether Treasury had
exceeded the contract ceilings.

We reviewed the policies and procedures established by ARC to
perform compliance monitoring of FedSource procurement
activities. We also reviewed ARC’s reports on compliance reviews
that had been completed at the FedSource Baltimore, Los Angeles,
and Seattle centers during 2006.

We performed our audit fieldwork between October 2006 and April
2007. Our audit was conducted in accordance with generally
accepted government auditing standards.




ACQUISITIONS: Although Weaknesses Still Exist,              Page 30
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
                           Appendix 2
                           Schedule of Task Order Exceptions




                                     Market                            Price       Technical   Quality Assurance
Task Order No.         Amount      Research    Competition   Reasonableness       Evaluation    Surveillance Plan
BAL119918             $248,309           X                                                X         X–   3,5
BAL119945              161,888           X                                                X         X–   1,3,4,5
BAL119880              352,260           X                                X               X         X–   1,5
BAL119863               51,425           X                                                X         X–   1,3,5
BAL119858              238,000                                            X               X         X–   4,5
BAL119946              258,229                                                            X         X–   1,5
BAL119908              320,055           X                                                X         X–   1,5
BAL119886              300,000           X                                X               X         X–   1,2,5
LOS015545              329,179           X                                                X         X–   3,5
LOS015648              898,728           X                                X               X         X–   1,3,5
LOS015595                6,666           X                                                X         X–   4,5
LOS015694            2,390,480           X                                                X         X–   3,5
LOS015627               42,677           X                                                          X–   1,3^
LOS015635              276,350           X                                                          X–   1,2,3^
LOS015699*           1,694,620           X              X                 X               X         X–   5
LOS015634*             518,118           X              X                 X               X         X–   3,5
LOS015623*             179,250           X              X                 X               X         X–   1,5
LOS015714*             414,644           X              X                 X               X         X–   3,5
SAN009018              143,780           X                                                          X–   1,5
SAN008986            1,773,134           X                                                          X–   1,3,5
SAN009002              212,060           X                                                          X–   1,5
SAN009022              518,601           X                                                          X–   1,5
SAN008978               84,691           X                                                          X–   1,5
SAN009016              885,725           X                                                          X–   1,4,5
SAN009013              268,410           X                                                          X–   1,5
SAN009014              105,730           X                                                          X–   4,5
SAN009000              148,617           X                                                          X–   1,5
SAN008992              108,180           X                                                          X–   1,5
Totals             $12,929,806          26              4                 8              16         28


    Legend:

       X - Exception to procurement requirements noted.
       * - Task order was part of the FasTrac program.
       1 - The frequency of surveillance method as identified in the quality assurance surveillance plan
            (QASP) did not correspond to the frequency of surveillance described in the statement of work.
       2 - The QASP did not identify the frequency of surveillance.
       3 - The statement of work was written too broadly to create meaningful measures of performance
            in the related QASP. Likewise, the performance standards in the QASP were too broad to
            measure.
       4 - The QASP lacked sufficiently specific performance standards.
       5 - FedSource’s files lacked documentation of surveillance.
        ^ - Task orders files that documented surveillance.




                           ACQUISITIONS: Although Weaknesses Still Exist,                              Page 31
                           the Treasury Franchise Fund Improved Compliance With
                           DOD Procurement Requirements (OIG-08-002)
Appendix 3
Management Response




ACQUISITIONS: Although Weaknesses Still Exist,         Page 32
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
Appendix 3
Management Response




ACQUISITIONS: Although Weaknesses Still Exist,         Page 33
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
Appendix 4
Major Contributors to This Report




Cynthia S. Milanez, Acting Director, Manufacturing and
    Procurement Audits
Thomas E. Byrnes, Director, Manufacturing and Procurement
    Audits (Retired)
Ricardo Cabarrouy, Auditor-In-Charge
Chereeka Straker, Auditor
Rufus Etienne, Auditor
Alicia Bruce, Auditor
Rafael J. Cumba, Referencer




AQUISITIONS: Although Weaknesses Still Exist,               Page 34
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Chief Financial Officer
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Bureau of the Public Debt

    Commissioner
    Assistant Commissioner

Treasury Franchise Fund

    Managing Director
    Chief Executive Officer, FedSource

Department of Defense

    Inspector General

Office of Management and Budget

    OIG Budget Examiner

The Congress

    U.S. Senate, Committee on Armed Services
    U.S. House of Representatives, Committee on Armed Services




AQUISITIONS: Although Weaknesses Still Exist,             Page 35
the Treasury Franchise Fund Improved Compliance With
DOD Procurement Requirements (OIG-08-002)
